        We conducted this review from January through June 2008. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.

BACKGROUND

        The collective bargaining agreements for field office personnel provide for bilingual
awards. The awards are designated Level 1, Level 2, or Level 3, depending on the employee’s
level of bilingual contribution to Agency work. The amount of Level 2 awards shall be twice the
amount of Level 1 awards, and the amount of Level 3 awards shall be three times the amount of
Level 1 awards. The award pool is proportionately divided among all recipients. The
agreements state that during each year of the agreement, $20,000 will be provided for bilingual
awards. If the Level 3 award in any year is less than $500, the awards pool will be increased by
$5,000 the following year. By FY 2007, the award pool had increased to $40,000. In both FY
2006 and 2007, 111 bilingual awards were made to field office personnel.

RESULTS

Regular Use

       The collective bargaining agreements state that to be eligible for a bilingual award, an
employee needs to use his or her bilingual skills “on a regular basis rather than occasionally.”
“Regular” and “occasionally” are not defined by the agreements. The guidance issued by
Operations-Management does not address what criteria should be used to determine whether
bilingual skills are used “on a regular basis” as opposed to “occasionally.”

        Operations-Management prepares a list of bilingual field employees based upon a survey
of Regional Offices. The list includes information regarding the employee’s name, grade, and
position; language; whether the bilingual skills are oral and/or written; and the percentage of
time the employee spends using the skills. The data for the percentage of time the employee
spends using bilingual skills is largely based upon an estimate that is provided by managers in
each Region. This information was updated in August 2007.

        Using the list prepared by Operations-Management and information provided by
Regional Directors, we found that in FY 2007, the bilingual award recipients used at least two
languages as part of his or her job and that the total amount of awards made each year and the
individual employee’s share were in accordance with the collective bargaining agreements. We
also found that Regional Offices were not consistent in determining which employees regularly
used his or her bilingual skill. For example, one Regional Office nominated six employees who
were described as using his or her bilingual skills three percent or less of the time for Level 2
awards while other Regions did not nominate 34 employees who used bilingual skills five
percent or more of the time. Three of the six employees who used the bilingual skills three
percent or less of the time also used two additional languages. Among the group of employees
not receiving nominations for bilingual awards were 11 employees that the list showed used their
bilingual skills 20 percent or more of the time and 12 employees who used their bilingual skills
100 percent of the time. Operations-Management stated that employees who received an award
with a small percentage of use may have used bilingual skills in a large or important case.

                                                 2
       The following chart provides a comparison of the number of bilingual awards and the
percentage of use of the bilingual skills.

                                               FY 2007 Bilingual Award
 # of Individuals




                                                                         14
                                                                                           29




                        3              10                                10
                        1                        2                                                         3
                                                              6
                                                 4
                                        3                                    2
                                  16                                                       5
                        13                                    4
                                                                                                   9       12
                                                 8                           8             1
                                        7                     4
                                                                                           4
                                                              1                                    1
                    Amount Not    0    1-3      3-5       5 - 10       10 - 25         25 - 50   50 - 85   100
                     Quantified
                                               Percentage of Bilingual Use

                                             No Award   Level 1    Level 2       Level 3



Number of Awards

         The Agency agreed that it would not pre-determine the number of employees per
Regional Office who may be nominated and/or selected for bilingual awards. The guidance
provided by Operations-Management to the Regional Directors is consistent with that agreement
in that it does not provide any limits on the number of employees that may be nominated.

       We found that the number of nominations for bilingual awards varied among the
Regions. Sixteen Regional Directors forwarded nominations for 75 percent or more of the
Region’s eligible employees. By contrast, six Regional Directors forwarded nominations for 25
percent or fewer of employees who were eligible for an award. Overall, 68 percent of the
Agency’s eligible employees received a bilingual award.

        When we discussed the nomination process with Regional Directors, we found that they
had varying means of determining how many employees to nominate. One Regional Director
stated that she nominates three employees because there are three levels of awards. Originally,
she thought that they were limited to three awards, and after becoming aware that other offices
nominate more than three employees she continued her practice of nominating three employees.


                                                          3
Another Regional Director stated that he selects only one employee for each award level because
the amount of money provided is so small that he does not want to further dilute it.

Incorrect Award Payments in FY 2006

        The Regional Directors submit his or her approved award nominations to Operations-
Management. Based on the number of nominations submitted, Operations-Management
calculates the amount of the award for each recipient and prepares a list of employees who are to
receive an award and the dollar amount of the award. This list is then used to process a Standard
Form 52, Request for Personnel Action (SF 52) in the payroll system for each employee who
receives an award. In FY 2006, the SF 52s were initiated by the Human Resources Branch and
in FY 2007, they were initiated by Operations-Management.

        A comparison of bilingual awards nominations to reports from the Agency’s payroll
system identified several payment errors related to the FY 2006 bilingual awards. They are
listed below.

 • One employee was nominated for a Level II award of $264, but was paid a Level III award of
   $394.

 • One employee apparently received an award intended for another employee. The employee
   who received a Level II award was not nominated for an award and another employee who
   was nominated for a Level II award did not receive it. The two employees have the same last
   name and first initial.

 • One employee who was nominated for a Level III award of $394 received a Level II award
   of $264.

 • Three other employees who were nominated for bilingual awards did not receive the awards.
   Two of the awards were at Level II and one award was at Level III. The total amount of the
   awards was $922.

SUGGESTIONS

We suggest that the Associate General Counsel, Division of Operations-Management:

   1. Provide a summary of the prior year’s bilingual awards nomination when issuing the
      annual guidance to the Regional Directors. Providing this information will assist the
      Regional Directors in determining what is regular use of bilingual skills and over time
      should help establish some consistency of the bilingual awards process across the
      Regions.

   2. Consider ways to correct the payments to award nominees who did not receive an award
      in the proper amount.




                                                4
